CR-B-02-01




              AUDIT               FIXED-PRICE CONTRACTING FOR
             REPORT              DEPARTMENT OF ENERGY CLEANUP
                                            ACTIVITIES




                                          OCTOBER 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                              October 15, 2001


MEMORANDUM FOR THE ASSISTANT SECRETARY, OFFICE OF
                   ENVIRONMENTAL MANAGEMENT

FROM:                    Phillip L. Holbrook (Signed)
                         Deputy Inspector General
                           for Audit Services
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on “Fixed-Price Contracting for Department of
                         Energy Cleanup Activities”

BACKGROUND

As part of its Contract Reform effort, the Department of Energy (Department) acted to increase its use of
fixed-price contracts. This shift was designed to increase the cost-effectiveness of operations. Since
October 1994, the Office of Environmental Management (EM) has awarded a number of fixed-price
contracts for environmental cleanup activities. In so doing, EM expected significant cost savings when
compared to approaches previously employed by management and operating contractors. Accurately
estimating those savings is crucial to contracting strategy and project funding decisions, as well as the
Department's overall environmental cleanup strategy.

The objective of our audit was to determine if the cost savings anticipated from the use of fixed-price
contracts for environmental cleanup activities would be realized.

RESULTS OF AUDIT

The Department estimated that it would save approximately $1.7 billion on the 11 fixed-price
environmental contracts covered by this audit. However, the audit disclosed that projected savings
associated with nine of these contracts were not likely to be fully realized. Projected savings were unlikely
to be achieved because some savings estimates were unsupported or based on invalid cost comparisons and
because increases in actual costs had occurred or were likely.

In conducting the audit, we found that the Department had not consistently developed comparable and
supportable cost comparisons, and officials, in several cases, chose to award fixed-price contracts where
uncertainties associated with the work increased the risk of cost increases. Further, the Department did not
systematically apply lessons learned from earlier contract awards or establish appropriate procedures to
assess performance. As a consequence, at least $160 million of the anticipated cost savings were unlikely
to be achieved. Additional problems that we could not quantify could further reduce estimated savings.
The realization of these savings is critically important to accomplishing the Department’s commitment to
mitigate the risks and hazards posed by the legacy of nuclear weapons production and research. Therefore,
it is vitally important that the Department has estimates that are as realistic as possible and which fully
consider the risk uncertainties impose on the realization of those savings.

To improve the application of fixed-price contracting, the report recommends that the Assistant Secretary
for EM, working in concert with the Director of the Contract Reform and Privatization Office, strengthen
the processes by which decisions are made to use fixed-price contracts and implement a process to assess
their performance.
                                                   -2-


MANAGEMENT REACTION

While management disagreed with some of the conclusions in this report, they generally concurred with the
finding and agreed to take corrective actions. Detailed comments provided by management and our
response are discussed in the body of the report.
FIXED-PRICE CONTRACTING FOR DEPARTMENT OF ENERGY
CLEANUP ACTIVITIES


TABLE OF
CONTENTS


                Overview

                Introduction and Objective .................................................................... 1

                Conclusions and Observations .............................................................. 2


                Use of Fixed-Price Contracts for Environmental Cleanup
                Activities

                Details of Finding .................................................................................. 4

                Recommendations and Comments ........................................................ 9


                Appendices

                1. Other Matters ................................................................................. 12

                2. Observations on Environmental Management Awarded
                   Fixed-Price Contracts .................................................................... 13

                3. Scope and Methodology ............................................................... 14

                4. Prior Audit Reports........................................................................ 16
Overview
INTRODUCTION AND   A Department of Energy (Department) 1994 report, Making
OBJECTIVE          Contracting Work Better and Cost Less: Report of the Contract Reform
                   Team, recommended that work performed by the Department’s
                   management and operating contractors be critically assessed to
                   determine whether it could be more efficiently accomplished through
                   competitively awarded contracts. The report included a number of
                   recommendations to make the Department’s contracting practices more
                   cost effective, such as increasing the use of fixed-price contracts at both
                   the prime and subcontract levels. A Privatization Working Group
                   formed by the Secretary of Energy in 1996 made similar
                   recommendations.

                   In response to these initiatives, the Office of Environmental
                   Management (EM) adopted an approach of competitively awarding
                   contracts on a fixed-price basis. Management believed that the use of
                   such contracts would significantly reduce costs and expedite cleanup.
                   Since October 1994, EM has awarded 14 fixed-price contracts, each
                   with award values over $500,000, for environmental cleanup activities
                   including the construction and operation of waste treatment facilities.
                   Eleven of these contracts were reviewed as a part of this audit. The
                   remaining three contracts, pertaining to the tank waste remediation
                   effort at the Hanford site, were not examined because of extensive prior
                   audit coverage.

                   Congressional oversight of the Department’s contracting initiatives has
                   included a series of hearings where the Department was criticized for
                   not properly defining the scope of work and resolving significant
                   uncertainties before entering into fixed-price contracts. Such criticism
                   was primarily based on observations related to contracts awarded by the
                   Department between October 1994 and December 1996 for three
                   complex cleanup projects. The most recent hearing was held in June
                   2000 to address why the Department’s fixed-price cleanup activities
                   were still experiencing problems.

                   Accurate estimates of cost savings are critical to good program
                   performance. Among other things, these estimates are relied upon to
                   select the contracting strategy and to attract funding to specific projects.
                   For example, some projects with significant anticipated savings were
                   funded from a separate appropriation, which provided additional
                   funding for cleanup. Also, the Department relies on the savings on
                   these projects in order to fund other work. If that funding is not
                   available as planned, other projects could be delayed, thus lengthening
                   the schedule for cleanup. Ultimately, this could result in increased
                   health and environmental risks and overall cost.

Page 1                                                          Introduction and Objective
                  The objective of this audit was to determine if the cost savings
                  anticipated by the Department from the use of fixed-price contracts for
                  environmental cleanup activities would be realized.


CONCLUSIONS AND   The Department estimated that, through the use of the fixed-price
OBSERVATIONS      contract instrument, it would save about $1.7 billion on the 11
                  contracts reviewed. The audit disclosed projected savings
                  associated with nine of these contracts were not likely to be fully
                  realized. We determined that the Department’s effort was hindered
                  by contract cost estimates that were unsupported; invalid cost
                  comparisons that had been used as bases for calculating anticipated
                  savings; and actual and potential increases in costs. Collectively,
                  these problems made it very unlikely that the Department’s
                  anticipated savings would be fully realized. The anticipated
                  savings are important to the Department’s overall strategy to fund
                  accelerated cleanup assuming a flat, long-term budget. Thus, if
                  savings are not realized, progress toward cleanup could be slower.

                  The Department, in several cases, did not consistently follow
                  applicable guidance for developing and documenting cost
                  estimates. Additionally, the Department used fixed-price contracts
                  for several projects where there were significant technical
                  uncertainties, leading to change orders and cost growth. Further,
                  lessons learned from earlier fixed-price awards had not been
                  summarized, disseminated, and effectively used, in all cases, to
                  improve the effort.

                  As a result, at least $160 million of the anticipated savings for the
                  fixed-price environmental cleanup contracts were unlikely to be
                  achieved. Additional reductions in anticipated savings beyond the
                  $160 million were evident but could not be readily quantified. The
                  potential shortfall has implications for the Department’s overall
                  environmental remediation program.

                  This report includes a series of recommendations to strengthen the
                  Department’s practices relating to fixed-price contracting. In making
                  these recommendations, it should be noted that we do not question the
                  use of fixed-price contracts for cleanup work. We recognize that under
                  the fixed-price contracting method, the contractors share the risk
                  associated with the work. However, the effectiveness of this




Page 2                                                   Conclusions and Observations
         contracting approach in terms of realizing cost savings is limited when
         technical uncertainties remain at the time of contract award which can
         lead to cost increases.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                              _____(Signed)_________
                                              Office of Inspector General




Page 3                                        Conclusions and Observations
USE OF FIXED-PRICE CONTRACTS FOR ENVIRONMENTAL
CLEANUP ACTIVITIES

Savings Anticipated and   A key objective of the Environmental Management Privatization
Realization of Those      Program was to reduce the costs of cleanup through the use of fixed-
Savings                   price contracts. In implementing this program, the Department
                          developed cost comparisons that showed it would save about
                          $1.7 billion on the 11 contracts reviewed. However, we determined
                          that those savings would not be fully realized.

                          Several of the savings projections were based upon unsupported
                          estimates or invalid cost comparisons. Cost increases also diminished
                          the prospect of realizing certain projected savings that were anticipated
                          by Departmental management. The table below summarizes the
                          problems identified by contract award.




                          A more detailed discussion of the unsupported savings, invalid
                          comparisons, and cost increases identified during the course of the audit
                          follow. Additional examples are detailed in Appendix 2 of this report.

                                                        Unsupported Savings

                          In May 2000, the Idaho Falls Operations Office awarded a $217 million
                          contract for the Spent Nuclear Fuel Dry Storage project. The scope of
                          the project included design, licensing, permitting, construction, and
                          operation of facilities to receive, package, and store spent nuclear fuel.
                          The Department anticipated saving $75 million on this project by
                          awarding a fixed-price contract but did not have adequate support for
                          these estimated savings.

Page 4                                                                          Details of Finding
         To derive the savings estimate for this project, management took a
         detailed cost estimate prepared by the management and operating
         contractor at the Idaho National Engineering and Environmental
         Laboratory and added an additional cost factor of 40 percent. The
         revised total estimate ($292 million) was then compared to the contract
         award price ($217 million) to estimate savings for the project.
         Management indicated that it added the 40 percent factor based, in part,
         on data contained in a General Accounting Office report, which
         indicated that projects performed by management and operating
         contractors typically exceeded original estimates by 30 to 50 percent.
         Because the $75 million in estimated savings was based on the
         assumption that the management contractor would significantly exceed
         its own estimate, there was no detailed support for the estimated
         savings. The Department made this assumption despite the fact that the
         detailed cost estimate prepared by the management and operating
         contractor ($209 million) was roughly equivalent to an independent
         Army Corps of Engineers’ estimate of $208 million and to the
         fixed-price contract award of $217 million.

                                      Invalid Cost Comparisons

         For four of the contracts reviewed, the anticipated savings were
         overstated due to invalid cost comparisons. To illustrate, our analysis
         shows that the savings estimate for the Transuranic Waste Treatment
         Project was overstated by at least $30 million. The Department made
         its calculation estimate using costs included in a 1995 study, less the
         actual contract award price. However, we found that the 1998 contract
         and the 1995 study covered different scopes of work. The 1995 study
         included management contractor support costs ($30 million),
         transportation and disposal costs, and certain design, characterization,
         and demonstration work that was performed during the intervening
         period between the study and contract award.1 The fixed-price contract
         award did not cover any of these activities. Thus, the 1995 study was
         not an appropriate baseline for evaluating project costs. As a
         consequence, the estimated savings for this project were overstated.

                                             Cost Increases

         We identified, in addition, actual and potential cost increases with five
         of the eleven contracts reviewed. For example, increases of $52 million


          1
           Except for $30 million in management and operating contractor support costs, we were not
          able to readily determine the cost of this additional work scope.


Page 5                                                                      Details of Finding
                      were likely on the $263 million East Tennessee Technology Park
                      (ETTP) 3 Building Decontamination and Decommissioning contract.
                      Actual cost growth associated with scope changes after contract award
                      and repair of storm damage, totaled about $10 million as of June 2001.
                      Also, Departmental policy changes preventing the contractor from
                      selling nickel and other metals recovered from its operations on the
                      open market could cost the Department an additional $42 million.

                      Further, cost increases were possible on this contract because the
                      contractor had submitted two certified claims against the Department
                      totaling approximately $30 million for fire protection improvements
                      and material quantity adjustments. Both of these claims asserted that
                      additional work was needed that was not called for in the original
                      contract.

                      In another example of cost increases related to technical uncertainties,
                      the Carlsbad Area Office awarded two contracts for the fabrication of
                      remote handled transuranic waste shipping containers in August 2000,
                      totaling about $7.7 million. The Department anticipated savings of
                      $5.5 million on these contracts. However, at the time of the contract
                      award, there were technical uncertainties associated with the cask
                      design and how Nuclear Regulatory Commission certification would be
                      achieved. Management indicated, in June 2001, that recent changes to
                      the cask will increase costs by about $1 million.

                      Management in responding to an earlier draft of this report indicated
                      that certain cost increases would have occurred regardless of whether
                      the work was performed under a fixed-price contract or by a
                      management and operating contractor. We agree. However, since the
                      Department's overall strategy depends on using funds saved on these
                      projects to fund other cleanup projects with legally binding milestones,
                      we believe anticipated savings should be realistic and be adjusted to
                      account for cost increases that will result from uncertainties regardless
                      of the contracting tool.


Factors Hindering     We found that EM had not consistently followed applicable guidance
Attainment of Goals   for supporting and preparing comparable cost estimates nor fully
                      considered the risk of technical uncertainties. Additionally, it had not
                      developed a mechanism to assess the effectiveness of its fixed-price
                      contracting efforts or comprehensively applied lessons learned from
                      earlier fixed-price awards.




Page 6                                                                      Details of Finding
         The Department did not always prepare comparable cost estimates as
         stipulated in the Environmental Management Privatization Cost
         Estimating Guide. Specifically, field offices did not ensure that cost
         comparisons were fully documented and work scopes were similar.
         This was contrary to the guide and Departmental direction on cost
         estimation, which state that estimates should be traceable, well
         documented, and detailed. Further, both fixed-price and management
         contractor estimates must be updated and refined to reflect current
         project plans. Project cost estimates must incorporate the contract price
         and support costs not included in the contract.

         In addition, management did not fully and formally consider significant
         uncertainties in calculating cost savings. For example, under the ETTP
         3 Building Decontamination and Decommissioning contract, the scope
         of work had never before been attempted, and , the buildings to be
         cleared had not been fully characterized. These uncertainties increased
         the risk of cost increases as work progressed. Similarly, at the time of
         the contract award for the Advanced Mixed Waste Treatment Project,
         there was significant uncertainty about the contractor’s planned use of
         an incinerator. After contract award, the Department decided, due to
         concerns over public acceptance, that an incinerator would not be used,
         which could lead to increased costs to the Department.

         Also, the Department had not systematically assessed its fixed-price
         contracting experience or comprehensively disseminated results of
         lessons learned. Specifically, it had not:

         •   Defined or implemented guidance for periodically accumulating
             and reviewing cost savings information and for assessing the
             effectiveness of its fixed-price contracting applications. A
             September 1997 report issued by the Contract Reform and
             Privatization Project Office, the Contract Reform Self Assessment
             Report, advocated periodic Department reviews to assess the
             effectiveness of its fixed-price contracting applications. However,
             no action has subsequently been taken by the Contract Reform and
             Privatization Office to trigger such an assessment.

         •   Summarized and disseminated results of lessons learned regarding
             conditions to resolve prior to entering into fixed-price contracts. In
             commenting on an earlier draft of this report, management pointed
             out that it had taken some steps to disseminate lessons learned.
             Specifically, management indicated that it had established a website



Page 7                                                         Details of Finding
                                providing access to a “Lessons Learned database” and conducted a
                                workshop. While the Department developed and shared some
                                lessons learned, more could be done. In August 2000, the former
                                Contract Reform and Privatization Project Office conducted a
                                Workshop on Environmental Management Privatization Projects.
                                The workshop and related follow-up activities were aimed at
                                producing a number of outputs including a summary of lessons
                                learned and course corrections needed. Our follow-up on this
                                matter in June 2001 disclosed that results from the workshop had
                                yet to be issued.

Increased Risk and        The Department is implementing an aggressive plan to accelerate the
Decision Making Impacts   cleanup of its contaminated sites assuming a flat, long-term budget.
                          Accordingly, realizing planned cost savings from the fixed-price
                          contracting strategy is important to accomplishing the overall
                          environmental cleanup schedule. Invalid estimates and subsequent cost
                          increases for individual activities at various sites will likely result in
                          less than anticipated funding to accelerate cleanup at other sites and
                          activities. Thus, if savings are not realized, progress toward cleanup
                          could be slower, which may increase health and environmental risks
                          and the overall cost of the cleanup. In addition, inaccurate savings
                          estimates could result in improper contract tool selection and project
                          funding.

                          As part of this review, we identified at least $160 million2 of the
                          $1.7 billion in anticipated savings that are unlikely to be achieved. The
                          true reduction in savings, while yet to be determined, is likely to be
                          more than we were able to specifically identify. This was because, for
                          many of the problems cited, we were not able to quantify the associated
                          reduction in savings. Furthermore, all of the projects were still in
                          process at the time of our review.




                          2
                              Quantifiable savings unlikely to be realized are comprised of:
                              $75 million in unsupported savings for the Spent Nuclear Fuel Dry Storage Project
                              $ 2 million in unsupported savings on the contact handled transuranic waste
                                   shipping container contracts
                              $ 1 million increased cost on the remote handled transurancic waste shipping container
                                    contracts
                              $30 million from invalid cost comparison for the Transuranic Waste Treatment
                                   Project
                              $52 million in cost increases for the ETTP 3 Building Decontamination and
                                   Decommissioning contract

                          $160 million

Page 8                                                                                          Details of Finding
RECOMMENDATIONS   The Assistant Secretary for Environmental Management should initiate
                  action to:

                  1.   Assure consistency in the development of cost estimates for
                       significant Environmental Management fixed-price contracts as
                       stipulated in the Environmental Management Privatization Cost
                       Estimating Guide and DOE Guidance 430.1-1, Cost Estimate
                       Guide.

                  2.   Formally consider the risks and uncertainties in the contracting tool
                       selection process.

                  The Assistant Secretary for Environmental Management, in concert
                  with the Director of the Contract Reform and Privatization Office,
                  should initiate action to:

                  3. Accumulate cost savings information and assess the effectiveness of
                     significant fixed-price contracts, considering both contracts awarded
                     by Environmental Management and those awarded by its
                     management contractors.

                  4. Document and disseminate lessons learned from the August 2000
                     Workshop on Environmental Management Privatization Projects.


MANAGEMENT        While management disagreed with some of the conclusions in this
COMMENTS          report, they generally concurred with the finding and agreed to take
                  corrective actions. They pointed out that the Office of Inspector
                  General (OIG) only questioned $160 million of the $1.7 billion in
                  estimated savings. Additionally, they made the following specific
                  comments.

                  In regard to the Spent Nuclear Fuel Dry Storage Project, management
                  believed that increasing the original management and operating
                  contractor cost estimate by 40 percent was both appropriate and well
                  justified. Management stated that this factor was applied because the
                  original estimate (1) did not provide adequate contingency, (2) did not
                  include any allowance for fee or cost of capital, (3) contained
                  substantial omissions and understatements, and (4) was based on an
                  overly optimistic schedule. As such, they did not agree that the
                  associated $75 million in estimated savings was unsupported.

                  With respect to the ETTP 3 Building Decontamination and
                  Decommissioning Project, management agreed that there was a degree
                  of uncertainty in entering into this particular contract, especially since it

Page 9                                                                Recommendations/
                                                                  Management Comments
                   was a first-of-its-kind project in the Department. However, they
                   maintained that complex environmental cleanup projects such as this
                   could be successfully accomplished using a fixed-price contracting
                   strategy. Management stated that prior to award of this contract, they
                   had a significant amount of project-related data, several cost estimates
                   from a variety of sources, and a contractor with experience in the area.


AUDITOR COMMENTS   Management’s comments and proposed actions are generally
                   responsive to the issues raised in the report. However, we disagree
                   with some of the conclusions in those comments. Specifically,
                   while we were only able to quantify $160 million in reduced
                   savings, the report and Appendix 2 provide several examples of
                   problems where estimated cost savings are likely to be less than
                   anticipated, but we were not able to specifically quantify that
                   reduction. Savings associated with 9 of the 11 contracts reviewed
                   were not likely to be fully realized.

                   In regard to the Spent Nuclear Fuel Dry Storage Project, we determined
                   that the escalation of the management and operating contractor cost
                   estimate by 40 percent was based simply on an estimated cost overrun
                   and, as such, is not viable support for cost savings. Further, the $209
                   million management and operating contractor cost estimate included
                   contingency, at a rate of 18.5 percent of capital and operating costs. It
                   also contained an adjustment of $45 million to make the scope and
                   schedule of the project comparable to the request for proposals for the
                   fixed-price contract. While we agree that the management and
                   operating contractor cost estimate did not include any allowance for fee
                   or cost of capital, the fixed-price contract price it was compared to
                   ($217 million) did not include estimates for economic price
                   adjustments. These price adjustments will likely be more substantial
                   than any adjustments for fee or cost of capital. In addition, as stated in
                   the report, the $209 million estimate was comparable to two other
                   independent estimates.




Page 10                                                         Management Comments/
                                                                     Auditor Comments
          Finally, the uncertainties in entering into first-of-its-kind projects, such
          as the ETTP 3 Building Decontamination and Decommissioning
          Project, need to be fully considered when choosing a contracting
          strategy and calculating any anticipated savings. Despite
          management’s statement regarding good planning and contractor
          experience on this contract, uncertainties associated with the work will
          most likely lead to cost increases that should be considered by
          management in budgeting for environmental clean-up activities.




Page 11                                                          Auditor Comments
Appendix 1


                                         OTHER MATTERS


  We reviewed 30 subcontracts, valued at $178 million, awarded by the Department’s management
  contractors for environmental cleanup work. We could not determine whether cost savings would
  be realized. In most instances, cost savings had not been identified since the goods or services
  either had already been provided under a subcontract or were new requirements with no prior basis
  for comparison.

  We were, however, able to draw conclusions on the propriety of management contractors using
  fixed-price subcontracts considering such factors as work scope definition, the nature of the work
  requirement being satisfied, and the technical uncertainties. Based on our analysis, we concluded
  that the use of fixed-price contracts for these awards was in most cases appropriate. Scopes of
  work were clearly defined, contract periods were relatively short in duration, and technical
  uncertainties were minimal. As a result, successful completion of the contracts appeared likely.

  We also concluded that the Department, working through its management contractors, could do
  more to maximize the benefits of fixed-price contracting by expanding outsourcing opportunities.
  Specifically, several management contractors still did not have viable make-or-buy plans in place
  despite a 1997 Departmental requirement that they develop such plans. For example, since
  approval of the make-or-buy program at Savannah River in 1999, the Westinghouse Savannah
  River Company had yet to solicit industry price data to determine if work should be done in-house
  or by subcontractors.

  In February 2000, the OIG issued an audit report entitled The Department’s Management and
  Operating Contractor Make-or-Buy Program (DOE/IG-0460). The report estimated that the
  Department could save about $5 million if it made a detailed cost-benefit analysis of functions
  identified by three management contractors for potential outsourcing. Additional savings were
  also considered likely had the Department reviewed functions, valued at $1.3 billion, that were
  excluded from the make-or-buy process.




Page 12                                                                                    Other Matters
Appendix 2
             OBSERVATIONS ON ENVIRONMENTAL MANAGEMENT AWARDED
                            FIXED-PRICE CONTRACTS


 OTHER CONTRACTS WITH UNSUPPORTED SAVINGS

 •   The Carlsbad Area Office awarded two contracts for the fabrication of contact handled transuranic
     waste shipping containers in October 1999 for $5.2 million. Anticipated total savings for both
     contracts of $2 million was based upon a comparison to a management contractor estimate.
     Supporting data for the management contractor estimate was not available, so an analysis of the
     comparability of the estimates was not possible.


 OTHER CONTRACTS WITH INVALID COST COMPARISONS

 •   The 2 remote handled transuranic waste shipping containers contracts for $7.7 million had
     anticipated savings of $5.5 million. In addition to the likely cost increases discussed in the body
     of this report, we noted differences in scopes of work, which made the estimate and the contract
     award comparison invalid.

 •   The $263 million ETTP 3 Building Decontamination and Decommissioning contract had
     anticipated savings of at least $450 million. In addition to the likely cost increases discussed in
     the body of this report, we also noted that there were differences in work scopes and processes
     between the estimate and contract award that made the two cost estimates not comparable.


 OTHER CONTRACTS WITH POTENTIAL COST INCREASES

 •   In November 1997, the Oak Ridge Operations Office awarded a $10 million fixed-price contract
     for the K-1420 Decontamination and Decommissioning Project. Additional work scope was
     added and the contract award increased to $13 million. In December 2000, the contractor
     suspended cleanup work on this project. An agreement in principle has been reached with the
     contractor that will close the existing contract after approximately 90 percent completion of work
     and payment of $11.8 million. The remaining 10 percent of the work will be completed under a
     new contract. Management believes that the project will be completed at a cost close to the $13
     million. However, there may be additional costs associated with the contract closure, the new
     contract, and with the delay in project completion.

 •   Cost increases may also occur on the Advanced Mixed Waste Treatment Project. As a result of
     the Department’s decision not to use an incinerator as part of this project, an alternative process
     will be necessary. The Department is evaluating technological and regulatory alternatives for the
     waste previously planned for incineration. Cost impacts resulting from implementation of any
     alternatives are yet to be determined, and could potentially increase or decrease the contract price.
     A technical review panel was appointed and has made recommendations for alternatives. Cost and
     schedule impacts will be assessed after an alternative has been selected.

Page 13                                                    Observations on Environmental Management
                                                                        Awarded Fixed-Price Contracts
Appendix 3

SCOPE         The audit was performed from July 2000 to January 2001 at
              Department Headquarters in Washington, DC and Germantown, MD;
              Carlsbad Field Office in Carlsbad, NM; Idaho Falls Operations Office
              in Idaho Falls, ID; Oak Ridge Operations Office in Oak Ridge, TN; and
              Savannah River Operations Office in Aiken, SC. We reviewed 11
              fixed-price contracts having an original value of about $1.6 billion
              awarded by the Department, and 30 fixed-price subcontracts valued at
              about $178 million awarded by management contractors.


METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed pertinent reports issued by the OIG;

              •   Reviewed Departmental and external assessments of privatization
                  contracts and related issues;

              •   Reviewed the Office of Environmental Management Privatization
                  Program Management Plan, Environmental Management Program/
                  Project Manager’s Privatization Guide, and Environmental
                  Management Privatization Cost Estimating Guide;

              •   Reviewed applicable laws and regulations including the Department
                  of Energy Acquisition Regulations, Federal Acquisition Regulation,
                  Office of Management and Budget Circulars, Departmental
                  Directives, and Good Practice Guides related to privatization issues;

              •   Reviewed Defense Environmental Management Privatization
                  Annual Reports submitted to Congress for Fiscal Years 1997 and
                  1999 and calendar year 1999;

              •   Reviewed pertinent contract files for sample fixed-price contracts
                  and subcontracts;

              •   Reviewed incentives provided for in Performance Evaluation
                  Management Plans;

              •   Reviewed performance measures related to privatization and the use
                  of fixed-price contracts developed in response to the requirements
                  of the Government Performance and Results Act;




Page 14                                                     Scope and Methodology
          •   Obtained information from the Department’s management and
              operating, and management and integrating contractors concerning
              their subcontracting strategy and make-or-buy programs;

          •   Held discussions with personnel from the Headquarters Office of
              Environmental Management and the Contract Reform and
              Privatization Office; and

          •   Held discussions with project managers and other field-level
              representatives from the Carlsbad Field Office, the Idaho Falls, Oak
              Ridge, and Savannah River Operations Offices and their supporting
              contractors.

          The audit was performed in accordance with generally accepted
          Government auditing standards for performance audits, and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. We did not
          conduct a reliability assessment of computer-processed data because
          such data was not relied upon during the audit.




Page 15                                                 Scope and Methodology
Appendix 4

                                        PRIOR AUDIT REPORTS


•   The Decontamination and Decommissioning Contract at the East Tennessee Technology Park,
    (DOE/IG-0481, September 12, 2000). In August 1997, the Department entered into a fixed-price
    contract with BNFL, Inc. to decontaminate and decommission (D&D) three uranium enrichment
    buildings at the East Tennessee Technology Park (ETTP) on the Oak Ridge Reservation. BNFL was
    not on track to complete the D&D of the three buildings at the ETTP within the current contract price or
    on schedule. This condition occurred primarily because BNFL’s management team was ineffective. In
    addition, the Oak Ridge Operations Office did not provide sufficient oversight of BNFL’s project costs.

•   The Department’s Management and Operating Contractor Make-or-Buy Program, (DOE/IG-0460,
    February 17, 2000). Only one of four contractors reviewed had included all operating functions in its
    make-or-buy planning efforts. The other three contractors had either not included all functions in their
    make-or-buy plans or had not scheduled cost-benefit analyses for many outsourcing candidates.
    Program offices had not provided management and operating contractors with guidance to assist in the
    identification process, and procurement officials did not monitor contractor implementation of the
    program adequately. As a result, cost saving opportunities were missed.

•   Nuclear Waste: DOE’s Advanced Mixed Waste Treatment Project – Uncertainties May Affect
    Performance, Schedule, and Price, (GAO/RCED-00-106, April 29, 2000). Since award of this fixed-
    price contract in 1997, changes in the technical approach have simplified the treatment of 75 percent of
    the waste and reduced the contract price. For the remaining waste that was to be incinerated, recent
    events have required a reexamination of the treatment approach. As of April 2000, the project was
    behind schedule attributable to BNFL’s overly optimistic assumption for state and Environmental
    Protection Agency approval of construction permits. GAO concluded that project uncertainties
    increased the likelihood of increases in the contract price.

•   Department of Energy: Alternative Financing and Contracting Strategies for Cleanup Projects,
    (GAO/RCED-99-169, May 29, 1999). The audit was conducted to determine what conditions need to
    be present to successfully use fixed-price contracting for Environmental Management’s privatized
    cleanup activities and what alternative financing approaches could be used. The GAO found that fixed-
    price contracts could successfully be used for environmental cleanup when: projects are well defined,
    uncertainties can be allocated between the parties, and sufficient price information and/or multiple
    competing bidders are available. The GAO identified government guarantees of debt, performance
    payments, and progress payments as other financing approaches that attempt to strike a balance between
    performance risk and financing costs.




Page 16                                                                                 Prior Audit Reports
                                                                           IG Report No. CR-B-02-01

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
